■

■- U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 11/19/2019 at 1:51 PM EST and filed on 11/19/2019
Case Name: Utsey v. South Carolina Department of Corrections
Case Number: 8:19-cv-03218-JMC-JDA
Filer:
Document Number: 5

Docket Text:
PROPER FORM ORDER directing Plaintiff to notify the clerk in writing of any change of
address. Case to be brought into proper form by 12/10/2019. Add an additional 3 days only if
served by mail or otherwise allowed under Fed. R. Civ. P. 6. Signed by Magistrate Judge
Jacquelyn D Austin on 11/19/2019. (gpre,)
/
/

8:19-cv-03218-JMC-JDA Notice "has been electronically mailed to:
8:19-cv-03218-JMC-JDA Notice will not be electronically mailed to:
Spencer Utsey
192660
F2-B-139
Kirkland Correctional Institution
4344 Broad River Road
Columbia, SC 29210
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID-1091130295 [Date-11/19/2019] [FileNumber-93637750] [13019d7251501590ca50b39729e759461140b9d72d3e30ae22a9a5237cbf81219a
Ab76d92dcl91fd86626f80d3e2a73585186ae954a7920c77548237199b23da9]]

\

£
\

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 1 of 4

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION
Spencer Utsey,

) C/A No. 8:19-cv-03218-JMC-JDA
Petitioner,

v.
South Carolina Department of Corrections,
Warden of Kirkland Correctional institution,
Respondent.

)
)
)
)
)
)
)
)
)

ORDER

Spencer Utsey, an inmate in the custody of the South Carolina Department of
Corrections (“SCDC”), commenced this action by filing a hand-written document titled
“Notice of intent to appeal and motion for the court.” [Doc. 1.] The Clerk of Court opened
the case as a civil rights action under 42 U.S.C. § 1983. The Pleading appears to
challenge Petitioner’s South Carolina state conviction and sentence, and he appears to
seek review of the South Carolina Supreme Court’s Order, dated October 15, 2019,
denying his petition for writ of certiorari at case number 2019-001302. Therefore, the Court
construes this action as seeking habeas corpus relief under 28 U.S.C. § 2254. See In re
Wright, 826 F.3d 774, 779 (4th Cir. 2016) {“[Rjegardless of how they are styled, federal
habeas petitions of prisoners who are ‘in custody pursuant to the judgment of a State court’
should be treated as ‘applications under section 2254.’”); Preiser v. Rodriguez, 411 U.S.
475, 500 (1973) (“[Wjhen a state prisoner is challenging the very fact or duration of his
physical imprisonment, and the relief he seeks is a determination that he is entitled to
immediate release or a speedier release from that imprisonment, his sole federal remedy
is a writ of habeas corpus.”). Accordingly, the Clerk of Court will be directed to re­
characterize this action as a § 2254 habeas action.
As directed below, when Petitioner submits the § 2254 habeas petition on the court
form, he is also directed to put in the § 2254 habeas petition all of the grounds and claims
that he believes he has. Petitioner’s attention is directed to the questions on the court form
regarding the exhaustion of state remedies. If Petitioner did not intend to raise his claims
as seeking habeas relief, he must advise the Court in writing and file the appropriate
complaint on a standard court form.
Petitioner js_ao-S.CD-C_prisoner, proceeding pro se. Therefore, in the event that a
limitations issue arises, Petitioner shall have the benefit of the holding in Houston v. Lack,
487 U.S. 266 (1988) (explaining that a prisoner’s pleading was filed at the moment of
delivery to prison authorities for forwarding to District Court). Under Local Civil Rule
73.02(B)(2) of the United States District Court for the District of South Carolina, pretrial

7

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 2 of 4

proceedings in this action have been referred to the assigned United States Magistrate
Judge.
TO PETITIONER:
This case is not in proper form. If Petitioner does not bring this case into proper
form within the time permitted under this Order, this case may be dismissed for
failure to prosecute and comply with an order of this Court under Rule 41 of the
Federal Rules of Civil Procedure.
Under General Order, In Re: Procedures in Civil Actions Filed by Prisoner Pro Se
Litigants, No. 3:07-mc-5014-JFA (D.S.C. Sept. 18, 2007), the undersigned is giving
Petitioner twenty-one (21) days from the date this Order is entered (plus three days for
mail time) to:

(1)

Pay the five-dollar ($5) filing fee for a habeas corpus action, or
complete and return the Form AO 240 (application to proceed
in forma pauperis) attached to this Order. If Petitioner decides
to pay the five-dollar ($5) filing fee for a habeas corpus action,
the check for the filing fee should be made payable to “Clerk,
U.S. District Court.

(2)

Complete, sign, and return a § 2254 habeas petition, which is
attached to this Order. The Clerk of Court did file the hand­
written pleading you submitted. However, you must complete
a § 2254 habeas form. Thus, to preserve the issues raised in
this case and give liberal construction to the pleadings, the
current petition form that you are requested to submit will be
filed as an attachment to Doc. 1. You are also directed to put
in the § 2254 habeas petition all grounds and claims that you
believe you have. See 28 U.S.C. § 2244 (regarding the finality
of determination and explaining that a second or successive
§ 2254 habeas corpus application may only proceed under
limited circumstances after the court of appeals authorizes it).

(3)

If Petitioner did not intend to file this action as a petition for writ
of habeas corpus pursuant to 28 U.S.C. § 2254, he must

1lf Petitioner intends to assert claims pursuant to 42 U.S.C. § 1983, rather than
assert claims under the applicable habeas statute, he must pay the applicable $350.00
filing fee, and also the additional $50.00 administrative fee set by the Judicial Conference.
The $400.00 check for the filing fee should be made payable to “Clerk, U.S. District Court.”
Again, if Petitioner believes that he is indigent, he must complete, sign, and return an
Application to Proceed Without Prepayment of Fees and Affidavit (Form AO 240).
2

r

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 3 of 4

advise the Court in writing in response to this Order within the
time permitted under the Order.
Petitioner must place the civil action number listed above (Case No. 8:19-cv-03218JMC-JDA) on any document Petitioner submits to this Court pursuant to this Order. In the
meantime, service shall not be authorized until the items specified above have been
reviewed by the assigned Magistrate Judge.
Any future filings in this case must be sent to the address below (300 East
Washington Street, Room 239, Greenville, South Carolina 29601). Ail documents
requiring Petitioner’s signature shall be signed with Petitioner’s full legal name written in
Petitioner’s own handwriting. Pro se litigants shall not use the “s/typed name” format used
in the Electronic Case Filing System. In all future filings with this Court, Petitioner is
directed to use letter-sized (814 inches by 11 inches) paper only, to write or type text on one
side of a sheet of paper only and not to write or type on both sides of any sheet of paper.
Petitioner is further instructed not to write to the edge of the paper, but to maintain one inch
margins on the top, bottom, and sides of each paper submitted.
Petitioner is a pro se litigant.
important notice:

Petitioner’s attention is directed to the following

You are ordered to always keep the Clerk of Court advised in
writing (300 East Washington Street, Room 239,
Greenville, South Carolina 29601) if your address changes
for any reason, so as to assure that orders or other matters
that specify deadlines for you to meet will be received by you.
If as a result of your failure to comply with this Order, you fail
to meet a deadline set by this Court, vour case may be
dismissed for violating this Order. Therefore, if you have a
change of address before this case is ended, you must comply
with this order by immediately advising the Clerk of Court in
writing of such change of address and providing the Court with
the docket number of all pending cases you have filed with this
Court. Your failure to do so will not be excused by the Court.
TO THE CLERK OF COURT:
Based on the allegations in the Petitioner’s hand-written pleading, the Court
construes this action as a habeas corpus petition pursuant to 28 U.S.C. § 2254. Therefore,
the Clerk of Court is directed to re-characterize and designate this action as pursuant to 28
U.S.C. § 2254. See in re: Wright, 826 F. 3d 774 (4th Cir. 2016).
The Clerk of Court is directed to add to the docket the Warden of Kirkland
Correctional Institution as the. Respondent, and to terminate the South Carolina Department
3

A

V

•

8:19-cv-03218-JMOJDA

Date Filed 11/19/19

Entry Number 5

Page 4 of 4

• ft

of Corrections, because a prisoner’s custodian is the proper respondent in a habeas corpus
action. See Rumsfeld v. Padilla, 542 U.S. 426, 434-35 (2004).
The Clerk of Court shall mail a copy of this Order and the proper form documents
to Petitioner. If Petitioner fails to provide any item listed above to the Clerk of Court within
the period prescribed in this Order, the Clerk of Court shall forward the file to the assigned
United States Magistrate Judge to determine if this case should be dismissed. See In Re:
Procedures in Civil Actions Filed by Prisoner Pro Se Litigants, 3:07-mc-5014-JFA (D.S.C.
Sept. 18, 2007). If, however, Petitioner provides this Court with the items listed above, the
Clerk of Court should forward the file to the assigned Magistrate Judge to determine if
service should be authorized.
To preserve issues raised in this case and give liberal construction to the pleadings,
the Clerk of Court is directed to file the documents submitted by Plaintiff in response to this
Order (the completed § 2254 habeas petition) as an attachment to Doc. 1.
The Clerk of Court shall not enter any change of address submitted by Petitioner
which directs that mail be sent to a person other than Petitioner unless that person is an
attorney admitted to practice before this Court who has entered a formal appearance.
IT IS SO ORDERED.
s/Jacauelvn D. Austin
United States Magistrate Judge
November 19, 2019
Greenville, South Carolina

•V

4

«

U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 11/19/2019 at 1:51 PM EST and filed on 11/19/2019
Case Name: Utsey v. South Carolina Department of Corrections
Case Number: 8:19-cv-032i8-JMC-JDA
Filer:
Document Number: 5

Docket Text:
PROPER FORM ORDER directing Plaintiff to notify the clerk in writing of any change of
address. Case to be brought into proper form by 12/10/2019. Add an additional 3 days only if
served by mail or otherwise allowed under Fed. R. Civ. P. 6. Signed by Magistrate Judge
Jacquelyn D Austin on 11/19/2019. (gpre,)
j
8:19-cv-03218-JMC-JDA Notiee'has been electronically mailed to:
8:19-cv-03218-JMC-JDA Notice will not be electronically mailed to:
Spencer Utsey
192660
F2-B-139
Kirkland Correctional Institution
4344 Broad River Road
Columbia, SC 29210
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStampJD=1091130295 [Date=l 1/19/2019] [FileNumber-9363775.0] [13019d7251501590ca50b39729e759461140b9d72d3e30ae22a9a5237cbf81219a
lb76d92dcl91fd86626f80d3e2a73585186ae954a7920c77548237199b23da9]]

"v.

fc V .

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 1 of 4

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION
Spencer Utsey

) C/A No. 8:19-cv-03218-JMC-JDA
..

Petitioner,
v.
South Carolina Department of-Gorrections,
Warden of Kirkland Correctional Institution,
Respondent.

)
)
)
)
)
)
)
)
)

ORDER

Spencer Utsey, an inmate in the custody of the South Carolina Department of
Corrections ("SCDC”), commenced this action by filing a hand-written document titled
“Notice of intent to appeal and motion for the court.” [Doc. 1.] The Clerk of Court opened
the case as a civil rights action under 42 U.S.C. § 1983. The Pleading appears to
challenge Petitioner’s South Carolina state conviction and sentence, and he appears to
seek review of the South Carolina Supreme Court's Order, dated October 15, 2019,
denying his petition for writ of certiorari at case number 2019-001302. Therefore, the Court
construes this action as seeking habeas corpus relief under 28 U.S.C. § 2254. See In re
Wright, 826 F.3d 774, 779 (4th Cir. 2016) {"[R]egardless of how they are styled, federal
habeas petitions of prisoners who are ‘in custody pursuant to the judgment of a State court’
should be treated as ‘applications under section 2254.’”); Preiser v. Rodriguez, 411 U.S.
475, 500 (1973) (“[W]hen a state prisoner is challenging the very fact or duration of his
physical imprisonment, and the relief he seeks is a determination that he is entitled to
immediate release or a speedier release from that imprisonment, his sole federal remedy
is a writ of habeas corpus.”). Accordingly, the Clerk of Court will be directed to re­
characterize this action as a § 2254 habeas action.
As directed below, when Petitioner submits the § 2254 habeas petition on the court
form, he is also directed to put in the § 2254 habeas petition all of the grounds and claims
that he believes he has. Petitioner’s attention is directed to the questions on the court form
regarding the exhaustion of state remedies. If Petitioner did not intend to raise his claims
as seeking habeas relief, he must advise the Court in writing and file the appropriate
complaint on a standard court form.
Petitionerjs_an-S-CD.C_prisoner1 proceeding pro se. Therefore, in the event that a
limitations issue arises, Petitioner shall have the benefit of the holding in Houston v. Lack,
487 U.S. 266 (1988) (explaining that a prisoner’s pleading was filed at the moment of
delivery to prison authorities for forwarding to District Court). Under Local Civil Rule
73.02(B)(2) of the United States District Court for the District of South Carolina, pretrial

5

7

1

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 2 of 4

proceedings in this action have been referred to the assigned United States Magistrate
Judge.
TO PETITIONER:
This case is not in proper form. If Petitioner does not bring this case into proper
form within the time permitted under this Order, this case may be dismissed for
failure to prosecute and comply with an order of this Court under Rule 41 of the
Federal Rules of Civil Procedure.
Under General Order, In Re: Procedures in Civil Actions Filed by Prisoner Pro Se
Litigants, No. 3:07-mc-5014-JFA (D.S.C. Sept. 18, 2007), the undersigned is giving
Petitioner twenty-one (21) days from the date this Order is entered (plus three days for
mail time) to:

(1)

Pay the five-doliar ($5) filing fee for a habeas corpus action, or
Complete and return the Form AO 240 (application to proceed
in forma pauperis) attached to this Order. If Petitioner decides
to pay the five-dollar ($5) filing fee for a habeas corpus action,
the check for the filing fee should be made payable to “Clerk,
U.S. District Court. »1

(2)

Complete, sign, and return a § 2254 habeas petition, which is
attached to this Order. The Clerk of Court did file the hand­
written pleading you submitted. However, you must complete
a § 2254 habeas form. Thus, to preserve the issues raised in
this case and give liberal construction to the pleadings, the
current petition form that you are requested to submit will be
filed as an attachment to Doc. 1. You are also directed to put
in the § 2254 habeas petition all grounds and claims that you
believe you have. See 28 U.S.C. § 2244 (regarding the finality
of determination and explaining that a second or successive
§ 2254 habeas corpus application may only proceed under
limited circumstances after the court of appeals authorizes it).

(3)

If Petitioner did not intend to file this action as a petition for writ
of habeas corpus pursuant to 28 U.S.C. § 2254, he must

1lf Petitioner intends to assert claims pursuant to 42 U.S.C. § 1983, rather than
assert claims under the applicable habeas statute, he must pay the applicable $350.00
filing fee, and also the additional $50.00 administrative fee set by the Judicial Conference.
The $400.00 check for the filing fee should be made payable to “Clerk, U.S. District Court."
Again, if Petitioner believes that he is indigent, he must complete, sign, and return an
Application to Proceed Without Prepayment of Fees and Affidavit (Form AO 240).
2

r

8:19-cv-03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 3 of 4

advise the Court in writing in response to this Order within the
time permitted under the Order.
Petitioner must place the civil action number listed above (Case No. 8:19-cv-03218JMC-JDA) on any document Petitioner submits to this Court pursuant to this Order. In the
meantime, serviceshall not be authorized until the items specified above have been
reviewed by the assigned Magistrate Judge.
Any future filings in this case must be sent to the address below (300 East
Washington Street, Room 239, Greenville, South Carolina 29601). All documents
requiring Petitioner's signature shall be signed with Petitioner’s full legal name written in
Petitioner’s own handwriting. Pro se litigants shall nofuse the “s/typed name” format used
in the Electronic Case Filing System. In all future filings with this Court, Petitioner is
directed to use letter-sized (814 inches by 11 inches) paper only, to write or type text on one
side of a sheet of paper only and not to write or type on both sides of any sheet of paper.
Petitioner is further instructed not to write to the edge of the paper, but to maintain one inch
margins on the top, bottom, and sides of each paper submitted.
Petitioner is a pro se litigant.
important notice:

Petitioner’s attention is directed to the following

You are ordered to always keep the Clerk of Court advised in
writing (300 East Washington Street, Room 239,
Greenville, South Carolina 29601) if your address changes
for any reason, so as to assure that orders or other matters
that specify deadlines for you to meet will be received by you.
If as a result of your failure to comply with this Order, you fail
to meet a deadline set by this Court, vour case may be
dismissed for violating this Order. Therefore, if you have a
change of address before this case is ended, you must comply
with this order by immediately advising the Clerk of Court in
writing of such change of address and providing the Court with
the docket number of all pending cases you have filed with this
Court. Your failure to do so will not be excused by the Court.
TO THE CLERK OF COURT:
Based on the allegations in the Petitioner’s hand-written pleading, the Court
construes this action as a habeas corpus petition pursuantto 28 U.S.C. § 2254. Therefore,
the Clerk of Court is directed to re-characterize and designate this action as pursuant to 28
U.S.C. § 2254. See In re: Wright, 826 F. 3d 774 (4th Cir. 2016).
The Clerk of Court is directed to add to the docket the Warden of Kirkland
Correctional Institution as the Respondent, and to terminate the South Carolina Department
3

• V

•

* •

8:19-cv~03218-JMC-JDA

Date Filed 11/19/19

Entry Number 5

Page 4 of 4

of Corrections, because a prisoner’s custodian is the proper respondent in a habeas corpus
action. See Rumsfeld v. Padilla, 542 U.S. 426, 434-35 (2004).
The Clerk of Court shall mail a copy of this Order and the proper form documents
to Petitioner. If Petitioner fails to provide any item listed above to the Clerk of Court within
the period prescribed in this Order, the Clerk of Court shall forward the file to the assigned
United States Magistrate Judge to determine if this case should be dismissed. See In Re:
Procedures in Civil Actions Filed by Prisoner Pro Se Litigants, 3:07-mc-5014-JFA (D.S.C.
Sept. 18, 2007). If, however, Petitioner provides this Court with the items listed above, the
Clerk of Court should forward the file to the assigned Magistrate Judge to determine if
service should be authorized.
To preserve issues raised in this case and give liberal construction to the pleadings,
the Clerk of Court is directed to file the documents submitted by Plaintiff in response to this
Order (the completed § 2254 habeas petition) as an attachment to Doc. 1.
The Clerk of Court shall not enter any change of address submitted by Petitioner
which directs that mail be sent to a person other than Petitioner unless that person is an
attorney admitted to practice before this Court who has entered a formal appearance.
IT IS SO ORDERED.
s/Jacauelvn D. Austin
United States Magistrate Judge
November 19, 2019
Greenville, South Carolina

ftr

4

r

FILED: June 8, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7683
(8:19-cv-03218-JMC)

SPENCER UTSEY, a/k/a Spencer Clay Utsey
Petitioner - Appellant
v.
WARDEN OF KIRKLAND CORRECTIONAL INSTITUTION
Respondent - Appellee
and
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS
Respondent

ORDER
The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Motz, Judge Wynn, and
Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

&

CM/ECF - scd

https://ecf.scd.circ4.dcn/cgi-bin/Dispatch.pl7868576529688941

Other Orders/Judgments
8:19-CV-03218-JMC Utsev v.
Warden of Kirkland Correctional
Institution
*

JDA-Inmate, PRIOR
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 10/14/2020 at 1:15 PM EDT and filed on 10/13/2020
Case Name:
Utsey v. Warden of Kirkland Correctional Institution
8:19-cv-03218-JMC
Case Number:
Filer:
Document Number: 19

Docket Text:
ORDER. The court accepts the Magistrate Judges Report
andRecommendation [12], DISMISSES WITHOUT PREJUDICE. Signed by
^*|ioiiorab5e J Michelle Childs on 10/13/20. (rweb, )

'M

8:19-cv-03218-JMC Notice has been electronically mailed to:
8:19-cv-03218-JMC Notice will not be electronically mailed to:
v.

Spencer Utsey
192660
F2-B-139
Kirkland Correctional Institution
4344 Broad River Road
Columbia, SC 29210
The following document(s) are associated with this transaction:
Document description:Main Document
Origi!uiI.filename:n/a
Electronic document Stamp; ,
. .
[STAMP dcccfStamp_ID~1091130295 [Date-10/14/2020] [FileNumber-98634740] [afl:2cldf88b2342557836fc4370beac6355f34c57'daf66dc8fld82ba0bl2af7dad
4bea71617ace7cldfd2d9ce77fe9cf0a979da09eff8a23017408039e803a58]]
4M

] of 1

10/14/2020, 1:

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 1 of 13

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
ANDERSON/GREENWOOD DIVISION
Spencer Utsey,

- )
Petitioner,

v.
Warden of Kirkland
Correctional Institution,
Respondent.

Civil Action No.: 8:19-cv-03218-JMC

)
)
)
)
)
)
)

ORDER AND OPINION

Petitioner Spencer Utsey, proceeding pro se,1 filed the instant action against Respondent
Warden of Kirkland Correctional Institution seeking a Petition for Writ of Habeas Corpus (the
“Habeas Petition”) pursuant to 28 U.S.C. § 2254 alleging that, inter alia, S.C. Code § 24-13-100
(West. 2020) is “an unconstitutional statute.” (ECF No. 1 at 2.)
In accordance with 28 U.S.C. § 636(b) and Local Civil Rule 73.02(B)(2)(g) (D.S.C.), the
matter was referred to the United States Magistrate Judge for pretrial handling. On December 12,
2019, the Magistrate Judge issued a Report and Recommendation (“Report”) recommending that
the court dismiss without prejudice Petitioner’s instant Petition and without requiring
Respondent to file a return.

(See ECF No. 12 at 7.) Petitioner filed Objections to the

Magistrate’s Report and Recommendation which are presently before the court. (See ECF No.
14.) For the reasons set forth below, the court ACCEPTS the Magistrate Judge’s Report and
DISMISSES Petitioner’s instant Habeas Petition (ECF No. 1) without prejudice and without
i

«

Because he is a pro se litigant, Petitioner’s pleadings are construed liberally by the court and
held to a less stringent standard than attorneys’ formal pleadings.” Simpson v. Florence Cty.
Complex Solic. ’s Off., Civil Action No. 4:19-cv-03095-JMC, 2019 WL 7288801, at *2 (D.S.C
Dec. 30, 2019) (citing Erickson v. Pardus, 551 U.S. 89, 94 (2007) (per curiam)). “This, however,
‘does not transform the court into an advocate’ for Petitioner; the court is not required to
recognize Petitioner’s claims if there is clearly no factual basis supporting them.” Id. (quoting
Weller v. Dep'tofSoc. Servs., 901 F.2d 387, 391 (4th Cir. 1990)).

1

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 2 of 13

requiring Respondent to file a return.
I.

FACTUAL AND PROCEDURAL BACKGROUND

Petitioner is an inmate presently incarcerated at the Kirkland Correctional Institution in
Columbia, South Carolina. See SCDC Inmate Search, https://public.doc.state.sc.us/scdcpublic/inmateDetails.do?id=%2000192660 (last visited Oct. 5, 2020). On June 15, 1999, a state
court jury found Petitioner guilty of armed robbery. (See ECF No. 1-3 at 1.) As a result,
Petitioner was sentenced to thirty years in prison. (See id.) Following his conviction,2
Petitioner filed a direct appeal on September 7, 2000. The South Carolina Court
of Appeals affirmed the conviction on November 20, 2000. Petitioner filed a
petition for a rehearing on December 5, 2000, which was denied on January 30,
2001. Petitioner [then] filed a petition for writ of certiorari to the South Carolina
Supreme Court on April 2, 2001. The Supreme Court denied the petition on June
21, 2001[ ] and issued the remittitur the next day. Petitioner filed a pro se
application for Post Conviction Relief (“PCR”) on April 9, 2002. After an
evidentiary hearing on January 9, 2003, the PCR court filed an order of dismissal
on March 3, 2003. Petitioner did not appeal the dismissal. Petitioner filed three
more PCR applications-on April 18, 2008, December 6, 2011, and November 19,
2012-each of which was denied as being untimely for having been filed past the
statute of limitations.
Utsey v. McCall, Civil Action No. 8:13-cv-01433-JMC, 2014 WL 4825625, at *2 (D.S.C. Sept.
24, 2014) (internal citations omitted). Petitioner then filed a pro se Petition for Writ of Habeas
Corpus in this court on May 23, 2013. (See ECF No. 12 at 5.) This court dismissed with
prejudice the Petition on September 24, 2014. (See id.) On September 21, 2017, Petitioner filed a
fifth PCR action in state court which remains pending at this time. See Utsey v. South Carolina,
Civil Action No. 2017-cp-05-00184, available at https://publicindex.sccourts.org/ Bamberg/Publ
2 The court takes judicial notice of the records filed in Petitioner’s state court actions and prior
habeas actions pursuant to 28 U.S.C. § 2254 and relevant civil rights actions filed in this court at
case numbers 5:19-cv-02873-JMC and 8:13-cv-01433-JMC. See Phillips v. Pitt Cty. Mem.
Hosp., 572 F.3d 176, 180 (4th Cir. 2009) (noting that courts “may [ ] take judicial notice of
maters of public record); Colonial Penn Ins. Co. v. Coil, 887 F.2d 1236, 1239 (4th Cir. 1989)
(citation and quotation marks omitted) (noting that the “most frequent use of judicial notice is in
noticing the content of court records”).

2

V+

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 3 of 13

icIndex/PISearch.aspx (search by case number) (last visited Oct. 8, 2020). On October 10, 2019,
Petitioner filed a civil rights complaint pursuant to 42 U.S.C. § 1983 against Judge Edgar W.
Dickson related to a state court action. (See ECF No. 12 at 4 n.3.) This case remains pending.
(See id.) The Magistrate Judge “recommend[s] summary dismissal of [the] action.” (Id.)
On November 12, 2019, Petitioner filed a hand-written document captioned as “Notice of
[I]ntent to Appeal and Motion for the [C]ourt.” (ECF No. 1 at l.)3 As the Magistrate Judge
correctly notes, Petitioner’s filings are “difficult to decipher.” (ECF No. 12 at 3.) Construing
Petitioner’s pleadings liberally, however, it appears Petitioner asserts the following grounds for
relief. First, Petitioner argues that he “won [his] PCR [appeal], but the state lost Petitioners]
transcript.” (ECF No. 1 at 4.) Second, Petitioner argues that he “filed a Complaint and a lawsuit
in which a Report and Recommendation [issued by this court], stated in-part . . . [that] judicial
act was unauthorized by law, the judge still has immunity from a suit seeking damages, and the
court overlook this and refuse to rule and grant relief.” (Id. at 12 (referring presumably to
Petitioner’s pending 42 U.S.C. § 1983 action against Judge Dickson).) Petitioner seeks to vacate
his sentence and conviction and be immediately released from incarceration. (See id. at 15.)
Petitioner makes additional allegations in his initial hand-written submission. (See
generally id.) First, Petitioner asserts that he wishes to appeal the court’s ruling dated October
3 The Clerk of Court subsequently docketed this case as a civil rights action filed pursuant to 42
U.S.C. § 1983. However, upon review of the handwritten submission, the Magistrate Judge
concluded that the action appeared to be one seeking habeas corpus relief pursuant to 28 U.S.C.
§ 2254. Accordingly, by Order dated November 19, 2019, the Magistrate Judge directed the
Clerk of Court to update the cause of action and nature of the suit. (See ECF No. 5 at 3.) The
Magistrate Judge also directed Petitioner to complete and file a petition on the standard § 2254
court form. (See id.) The Order specifically stated that “[i]f Petitioner did not intend to file this
action as a Petition for Writ of Habeas Corpus pursuant to § 2254, he must advise the [Magistrate
Judge] in writing . . . within the time permitted under the Order.” (Id. at 2-3.) Petitioner filed the
instant Petition and did not alert the Magistrate Judge that he intended to file a different type of
action. (See ECF No. 1-3.) This court concludes, therefore, that Petitioner “intended to bring this
action as a habeas action.” (ECF No. 12 at 1 n.l.)

3.

1ST

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 4 of 13

15, 2019, denying his petition for a writ of certiorari, (see id. at 1) and attaches a copy of an
Order by the South Carolina Supreme Court dated October 15, 2019, denying a petition for writ
of certiorari (see id. at 1-1). Second, Petitioner argues “that methamphetamine is not [a] violent
substance[.]” {Id. at 1.) Petitioner contends “meth is ice and it[’]s a narcotic drug that [has] been
changed to nonviolent.” {Id. at 2.) Accordingly, Petitioner argues that the “legislature has to
change the law for [S.C. Code §] 24-13-100 to non-violent, because it[’]s like taking a murder
offense from under the statu[t]e you can’t it will still be violent offense.” (Id.) In his hand-written
statement, Petitioner seeks immediate release from prison because he is “under a[n]
unconstitutional statute § 24-13-100.”4 (Id.) Petitioner attempts to make additional allegations
about methamphetamine and other drug statutes-citing various cases in turn—but these additional
allegations are unintelligible. (See id. at 3-5.)
On December 12, 2019, the Magistrate Judge issued the Report and Recommendation at
issue concluding that “the Petition filed in this case is successive and should[, therefore,] be
summarily dismissed [without prejudice and] without requiring the Respondent to file a return.”
(ECF No. 12 at 2.) On December 20, 2019, Petitioner filed Objections to the Magistrate’s Report
and Recommendation. (See generally ECF No. 14.)
II.

JURISDICTION

The court has jurisdiction over this matter pursuant to 28 U.S.C. § 2254, which provides
that a federal district court has jurisdiction to entertain a § 2254 habeas petition when the
petitioner is ‘‘in custody pursuant to the judgment of a State court ... in violation of the
Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a).
4 S.C. Code § 24-13-100 (West. 2020) provides that “for purposes of definition under South
Carolina law, a ‘no parole offense’ means a class A, B, or C felony or an offense exempt from
classification as enumerated in Section 16-1 -10(d), which is punishable by a maximum term of
imprisonment for twenty years or more.”

4

8:19-cv-03218-JMC

Date Filed 10/13/20

III.
A.

Entry Number 19

Page 5 of 13

STANDARD OF REVIEW

Report and Recommendation
The Magistrate Judge’s Report and Recommendation is made in accordance with 28

U.S.C. § 636(b)(1) and Local Civil Rule 73.02 for the District of South Carolina. The Magistrate
Judge only makes a recommendation to this court. See Mathews v. Weber, 423 U.S. 261, 270-71
(1976). The recommendation has no presumptive weight and the responsibility to make a final
determination remains with the court. See id. The court reviews de novo only those portions of
the Report and Recommendation to which specific objections are filed.s See Diamond v,
Colonial Life & Acc. Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005). The court reviews those
portions which are not specifically objected to only for clear error. See id. at 316. The court may
accept, reject, or modify, in whole or in part, the Magistrate Judge’s recommendation or
recommit the matter with instructions. See 28 U.S.C. § 636(b)(1).
IV.
A.

ANALYSIS

The Report and Recommendation
In the Report, the Magistrate Judge recommends that the court dismiss without prejudice

Petitioner’s Petition and without requiring Respondent to file a return. {See ECF No. 12 at 7.) In
reaching her recommendation, the Magistrate Judge noted that “[t]his is the second Petition [for
Writ of Habeas Corpus] filed under § 2254 that Petitioner has submitted to this [c]ourt in his
efforts, to challenge the constitutionality of his state court criminal conviction and sentence.” (Id.
at 5 (emphasis added).) According to the Magistrate Judge, because Petitioner’s instant Petition
is attacking the same conviction attacked in his first Petition and because the first Petition was
5 .An objection is specific if it “enables the district judge to focus attention on those issues —
factual and legal - that are at the heart of the parties’ dispute.” One Parcel of Real Prop. Known
As 2121 E. 30th St., 73 F.3d 1057, 1059 (10th Cir. 1996) (quoting Thomas v. Am, 476 U.S. 140,
147 (1985)).

5

il

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 6 of 13

adjudicated on the merits, the instant Petition is “successive” for purposes of 28 U.S.C. §
2244(b). (,See id. at 6-7 (citing In re Williams, 444 F.3d 233, 236 (4th Cir. 2006)).) Under §
2244(b)(3)(A), the Magistrate Judge noted, an applicant seeking to file a successive habeas
petition must first “file in the court of appeals a motion for leave to file a second or successive
habeas application in the district court.” (Id. at 6 (citing Felker v. Turpin, 518 U.S. 651, 657
(1996) (citing § 2244(b)(3)(A))).) Because Petitioner “did not obtain [such] authorization from
the [United States] Court of Appeals [for the Fourth Circuit (“Fourth Circuit”.)] to file the [instant
successive] Petition,” the Magistrate Judge concluded that this “[c]ourt does not have jurisdiction
to consider it.” (Id. at 7 (citing United States v. Winestock, 340 F.3d 200, 205-06 (4th Cir.

2003)).)
Accordingly, the Magistrate Judge recommended that Petitioner’s instant Petition (ECF
No. 1) be dismissed without prejudice and without requiring Respondent to file a return.
B.

Petitioner’s Objections to the Report and Recommendation
In his Objections, Petitioner asserts that the Magistrate Judge’s Report should be

rendered “invalid” for several reasons. (See ECF No. 14 at 1.)
First, Petitioner argues that because the Magistrate Judge’s Report and Recommendation
is not physically signed by the Magistrate Judge, the Report and Recommendation is invalid.
(See id.; see also id. at 4-5 (noting that because the Magistrate Judge’s signature “appears to be a
copyright or machinery signature printout [sic], .. . [Petitioner] must [ ] automatically w[i]n”).)
Second, Petitioner argues that his instant Petition is not an improperly submitted Petition
because “only the [first is] pending ... in Bamberg County’s Petitioner’s PCR.” (Id. at 2.)
Furthermore, Petitioner argues that “[t]he ‘gatekeeping’ mechanism created by the AEDPA,”
(ECF No. 12 at 6), “do[es] not apply to [him] because every[ ]time [he] filed a PCR appeal or

6

\t

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 7 of 13

Habe[as Petition,] the court gave [him] permission to file and sent Petitioner back [to] the lower
courts,” (ECF No. 14 at 4).
Third, Petitioner argues that the Magistrate Judge failed to. resolve or. “answer” his 42
U.S.C § 1983 claim against state court judge Edgar Dickson. (ECF No. 14 at 2.)
As a result of the aforementioned Objections, Petitioner asserts that the . court should
reject the Report and Recommendation and “immediate[ly] release [him] from prison.” (Id. at 1;
see also id. at 2, 5.) .
C.

The Court’s Review
Petitioner seeks habeas corpus relief pursuant to 28 U.S.C. § 2254. Although this statute

is the appropriate vehicle for a state prisoner, like Petitioner, to challenge his state conviction,
relief under the statute is unavailable to Petitioner because his instant Petition is successive. See
Abraham v. Padua, Civil Action No. 6:1 l-cv-2067-RMG, 2012 WL 4364643, at * 1 (D.S.C.
Sept. 24, 2012) (noting that the district “[c]ourt lacks jurisdiction to hear [Petitioner’s] second
claim for habeas relief until authorized by the . . . Fourth Circuit”). The court, therefore, first
addresses this procedural default and then turns to Petitioner’s Objections.as they relate to this
procedural default.
The AEDPA “limits the circumstances under which a petitioner may file a second or
successive application for federal habeas relief.” Id. (citing 28 U.S.C. § 2244(b)); see also In re
V/illiams, 443 F.3d at 235 (citation omitted) (“The [AEDPA] impose[s] strict limits on the
consideration of ‘second or successive’ habeas petitions.”). “Before a second or successive
application permitted by this section is filed in the district court, the applicant shall move in the
appropriate court of appeals for an order authorizing the district court to consider the
application.” 28 U.S.C. § 2244(b)(3)(A); see also Rule 9, Rules Governing Section 2254 Cases

7

n

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 8 of 13

in the United States District Courts (“Before presenting a second or successive petition, the
petitioner must obtain an order from the appropriate court of appeals authorizing the district
court to consider the petition as required by 28 U.S.C. § 2243(b)(3) and (4),”).
“There is no question that [Petitioner’s] proposed [HJabeas [Petition is, numerically, his
second one.” In re Williams, 443 F.3d at 235. Petitioner’s first Petition seeking relief under 28
U.S.C. § 2254 was submitted to this court on May 31, 2013. See generally Utsey v. McCall, 2014
V/L 4825625 (D.S.C. Sept. 24, 2014). The instant Petition for relief under 28 U.S.C. § 2254 was
submitted to this court on November 12, 2019. (See ECF No. 1.) “However, it is settled law that
not every numerically second petition is a ‘second or successive’ petition within the meaning of
the AEDPA.” In re Williams, 443 F.3d at 235. To be considered “successive,” the subsequent
petition must be an attack on the same state conviction challenged in the first petition and the
first petition must have been adjudicated on the merits. See id. at 236; see also Henderson v.
Bazzle, Civil Action No. 9:08-cv-978-MBS, 2008 WL 1908535, at *3 (D.S.C. April 29, 2009)
(noting that for a petition to qualify as “successive,” the prior petition must have been
adjudicated on the merits).
. Petitioner’s instant Petition is successive. Petitioner’s first § 2254 action filed in this
court challenged his state court conviction for which he is currently serving and was decided on
the merits. See generally Utsey, 2014 WL 4825625 (granting Respondent’s motion for summary
judgment and denying Petitioner’s petition for a Writ of Habeas Corpus). Because Petitioner’s
first Petition was dismissed on the merits, the instant Petition, attacking the same state court
conviction, is successive under 28 U.S.C. § 2244(b). See Shoup v. Bell & Howell Co., 872 F.2d
1178, 1181 (4th Cir. 1989) (citations omitted) (noting that a summary judgment dismissal is a
final adjudication on the merits under Fourth Circuit case law). Therefore, before this court may

8

e>

8:19-cv-03218-JMC

Date Filed 10/13/20 Entry Number 19

Page 9 of 13

review the merits of Petitioner’s second Petition, he must seek authorization to file such a
petition from the Fourth Circuit. See Winestock, 340 F.3d at 205-06; Joseph v. McKie, Civil
Action No. 8:14-cv-4100-RMG, 2014 WL 7369571, at *4 (citing id.) (“Because it appears that
Petitioner did not obtain authorization from the Fourth Circuit [] to file [his successive]
[pjetition, th[e] [district], [c]ourt does not have Jurisdiction to consider it.”). To hold otherwise,
would allow Petitioner an impermissible “second bite at the apple with respect to claims that
have already been denied on the merits.” In re Williams, 444 F.3d at 236.
Upon its consideration of the foregoing, the court finds the Magistrate Judge did not
commit clear error in finding that Petitioner’s procedural error currently bars the district court
from considering the merits of Petitioner’s successive Petition. Accordingly, this court accepts
the Magistrate Judge’s Report.
The court now turns to Petitioner’s Objections to the Magistrate Judge’s Report.
1. Failing to Physically Sign the Report and Recommendation
Petitioner argues that the Magistrate Judge’s Report and Recommendation should be
declared “invalid,” (ECF No. 1 at 1), because the Magistrate Judge did not physically sign the
Report, but rather used what “appears to be a copyright or machinery signature printout [sic],”
(id. at 4). The court rejects this argument.
In this district,
[electronically filed court orders and judgments shall have the same force and
effect as if the judge had affixed a signature to a paper copy of the document and
the document had been entered on the docket in the traditional manner. The
judge’s signature on an electronic order may appear as “s/” followed by the
judge’s name where the signature would otherwise appear or as a digital
signature.
See Electronic Case Filing Policies and Procedures, United States District Court for the District
;

of South Carolina at 5 (last modified Dec. 1, 2016) (emphasis added), http://www.scd.uscourts.g

9

8:19-cv-03218-JMC

Date Filed 10/13/20 Entry Number 19

Page 10 of 13

ov/AttorneyResourceManuals/ECF/ECF_Pol.icy_and__Procedures.pdf (last visited Oct. 6, 2020).
Here, the Magistrate Judge properly affixed her digital signature to the Report at issue.
The Magistrate Judge’s electronic signature on the Report begins with “s/” and is “followed by
the judge’s name where the signature would otherwise appear.” Id. at 5 (referencing ECF No. 12
at 7). The Magistrate Judge is not required to use a “digital signature” or physically sign the
Report as Petitioner asserts. See id.
The court concludes, therefore, that Petitioner is not entitled to habeas relief on this
ground.
2. Successive Petition
Petitioner challenges the Report’s finding that Petitioner’s instant Petition is a successive
petition that cannot be reviewed by this court without explicit authorization from the Fourth
Circuit. {See ECF No. 14 at 2 (“[T]his wouldn’t be Petitioner’s second habeas corpus nor
[fourth] PCR, post[-]conviction relief applications, only the [first] because its pending now with
instructions in Bamberg County.”) (verbatim).) Petitioner also argues that even if his instant
Petition constitutes a successive Petition, he is not required to abide by the gatekeeping
mechanisms established by the AEDPA. {See id. at 4 (“[The gatekeeping mechanisms] created
by the AEDPA ... do not apply to me because every[ ]time I filed a PCR or Habe[as Petition,]
the court gave me permission to file and sent [me] back [to] the lower courts.”) (verbatim).)
Petitioner’s first argument is unavailing. Petitioner argues that his instant Petition is not
successive for purposes of 28 U.S.C. § 2244. {See id. at 2.). However, his instant Petition
challenges the same state court conviction as his previous petition for habeas relief, compare
ECF No. 1-3 at 1 -with Utsey, Civil Action No. 8:13-cv-1433-JMC at ECF No. 1, and his first
Petition was adjudicated on the merits, see generally Utsey, 2014 WL 4825625; see also Shoup,

10

8;19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 11 of 13

872 F.2d at 1181 (concluding that a dismissal on a motion for summary judgment constitutes an
adjudication on the merits). Petitioner’s instant Petition is, therefore, successive for purposes of
28 U.S.C. § 2244. See In re Williams, 444 F.3d at 236. Petitioner must, therefore, acquire
authorization from the Fourth Circuit before this court may review the merits of his successive
Petition. See 28 U.S.C. § 2244(b).
Petitioner’s second argument is equally unavailing. Petitioner’s argument is difficult to
fully articulate, but to the extent that Petitioner is arguing that he is immune from following the
AEDPA’s provisions governing habeas, petitions in federal courts just because previous appeals
were allowed to proceed in “lower courts,” this argument must be rejected. (ECF No. 14 at 4.)
The AEDPA governs the circumstances under which a petitioner may file successive
applications for federal habeas relief. See generally 28 U.S.C. § 2244(b); see also Hansen, 2012
\VL 4364643 at *1. Petitioner must abide by these provisions every time he seeks-a successive
petition for habeas relief. See 28 U.S.C. § 2244(b)(3)(A) (emphasis added) (stating that “[bjefore
a[ny] . . . successive application permitted by this section.is filed in the district court, the
applicant shall move in the appropriate court of appeals for an order authorizing the district court
to considering the application”).
The court concludes, therefore, that Petitioner is not entitled to habeas relief on this
ground.
3. Failure to Address 28 U.S.C. § 1983 Claim
Petitioner next argues that the Magistrate Judge failed to resolve or “answer” his 42
U.S.C § 1983 claim against state court judge Edgar Dickson. (ECF No. 14 at 2.) In his
Objections, Petitioner asserts that the Magistrate Judge “did not deny the claim nor answer [the
claim] that [J]udge Edgar Dickson .. . pre-signed a conditional order of dismissal stemming from

11

8:19-cv-03218-JMC

Date Filed 10/13/20 Entry Number 19

Page 12 of 13

a PCR application.” (ECF No. 14 at 2.)6 Because the Magistrate Judge failed to provide a
response to this assertion, Petitioner requests “immediate release.” {Id. at 3.) Petitioner’s
argument is difficult to comprehend. To the extent Petitioner is arguing that the Magistrate Judge
should have considered the merits of Petitioner’s instant Petition before determining whether
jurisdiction is proper in this venue, the court cannot agree.
“[A] federal court [ ] may not rule on the merits of a case without first determining that it
has jurisdiction over” the claims asserted and the parties present in the suit. Sinochem Intern. Co.
Ltd. v. Malaysia Intern. Shipping Corp., 549 U.S. 422, 430-31 (2007) (citing Steel Co. v.
Citizens for Better Environment, 523 U.S. 83, 93-102 (1998)); see also Trustgard Ins. Co. v.
Collins, 942 F.3d 195 (4th Cir. 2019) (noting that the court “must generally decide jurisdictional
questions first”). Without proper jurisdiction, a federal court “cannot proceed at all in any
cause.” Steel Co., 523 U.S. at.94.
As stated above, Petitioner lacks jurisdiction in this court without proper authorization
from the Fourth Circuit. See supra Part IV.C. Until Petitioner “file[s] in the [Fourth Circuit] a
motion for leave to file a . . . successive habeas application in [this] district court,” Felker, 518
U.S. at 657 (citations omitted), this court is not the proper tribunal to consider Petitioner’s habeas
claims, see Winestock, 340 F.3d at 205-06. See also Joseph, 2014 WL 7369571 at *4 (citing id.).
The court concludes, therefore, that Petitioner is not entitled to habeas relief on this
ground.
V.

CONCLUSION

For the reasons set forth above, the court hereby OVERRULES Petitioner Spencer
Utsey’s Objections (ECF No. 14), DISMISSES WITHOUT PREJUDICE Petitioner Utsey’s

6 A copy of the conditional order is attached to Petitioner’s Objections. {See generally ECF No.
14-1.)
12
*

• 4.

8:19-cv-03218-JMC

Date Filed 10/13/20

Entry Number 19

Page 13 of 13

A

Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1) without requiring
Respondent to file a return. The court ACCEPTS the Magistrate Judge’s Report and
Recommendation (ECF No. 12) and incorporates it herein by reference.
CERTIFICATE OF APPEALABILITY
The law governing certificates of appealability provides that:
(c)(2) A certificate of appealability may issue . . . only if the applicant has made a
substantial showing of the denial of a constitutional right. (c)(3) The certificate of
appealability . . . shall indicate which specific issue or issues satisfy the showing
required by paragraph (2).
28 U.S.C. § 2253(c). A prisoner satisfies this standard by demonstrating that reasonable jurists
would find this court’s assessment of his constitutional claims is debatable or wrong and that any
dispositive procedural ruling by the district court is likewise debatable. See Miller-El v. Cockrell,
536 U.S. 322, 336 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000); Rose v. Lee, 252 F.3d
676, 683 (4th Cir. 2001). In this case, the legal standard for the issuance of a certificate of
appealability has not been met.
IT IS SO ORDERED.

.7
United States District Judge
October 13, 2020
Columbia, South Carolina

13

• *

*20-7683

5

Spencer Utsey
#192660
KIRKLAND CORRECTIONAL INSTITUTION
4344 Broad River Road
Columbia, SC 29210-0000

;/•
i

l

*

<*

i

FILED: April 23,2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7683,

Spencer Utsev v. Warden of Kirkland
8:19-cv-03218-JMC

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please
be advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: The time to file a petition for writ
of certiorari runs from the date of entry of the judgment sought to be reviewed, and
not from the date of issuance of the mandate. If a petition for rehearing is timely
filed in the court of appeals, the time to file the petition for writ of certiorari for all
parties runs from the date of the denial of the petition for rehearing or, if the
petition for rehearing is granted, the subsequent entry of judgment. See Rule 13 of
the Rules of the Supreme Court of the United States; www. supremecourt, gov.
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED
COUNSEL: Vouchers must be submitted within 60 days of entry of judgment or
denial of rehearing, whichever is later. If counsel files a petition for certiorari, the
60-day period runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is
being made from CJA funds, counsel should submit the CJA 20 or CJA 30
Voucher through the CJA eVoucher system. In cases not covered by the Criminal
Justice Act, counsel should submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund. An Assigned Counsel
Voucher will be sent to counsel shortly after entry ofjudgment. Forms and
instructions.are also available on the court's web site, www.ca4.uscourts.gov, or
from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment.
\ (FRAP 39, Loc. R. 39(b)).

2-1

/

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry
of judgment, except that in civil cases in which the United States or its officer or
agency is a party, the petition must be filed within 45 days after entry of judgment.
A petition for rehearing en banc must be filed within the same time limits and in
the same document as the petition for rehearing and must be clearly identified in
the title. The only grounds for an extension of time to file a petition for rehearing
are the death or serious illness of counsel or a family member (or of a party or
family member in pro se cases) or an extraordinary circumstance wholly beyond
the control of counsel or a party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the
mandate and tolls the running of time for filing a petition for writ of certiorari. In
consolidated criminal appeals, the filing of a petition for rehearing does not stay
the mandate as to co-defendants not joining in the petition for rehearing. In
consolidated civil appeals arising from the same civil action, the court's mandate
will issue at the same time in all appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or
legal matter was overlooked; (2) a change in the law occurred after submission of
the case and was overlooked; (3) the opinion conflicts with a decision of the U.S.
Supreme Court, this court, or another court of appeals, and the conflict was not
addressed; or (4) the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without a petition for rehearing en
banc, may not exceed 3900 words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter. Copies are not required unless
requested by the court. (FRAP 35 & 40, Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless
the court shortens or extends the time, in all other cases, the mandate issues 7 days
after the expiration of the time for filing a petition for rehearing. A timely petition
for rehearing, petition for rehearing en banc, or motion to stay the mandate will
stay issuance of the mandate. If the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will ordinarily be denied, unless
the motion presents a substantial question or otherwise sets forth good or probable
cause for a stay. (FRAP 41, Loc. R. 41).

\

FILED: April 23, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7683
(8:19-cv-03218-JMC)
SPENCER UTSEY, a/k/a Spencer Clay Utsey
Petitioner - Appellant
V.

WARDEN OF KIRKLAND CORRECTIONAL INSTITUTION
Respondent - Appellee
and
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS
Respondent

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7683
SPENCER UTSEY, a/k/a Spencer Clay Utsey,
Petitioner - Appellant,
v.
WARDEN OF KIRKLAND CORRECTIONAL INSTITUTION,
Respondent - Appellee,
and
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS,
Respondent.
Appeal from the United States District Court for the District of South Carolina, at
Anderson. J. Michelle Childs, District Judge. (8:19-cv-03218-JMC)
Submitted: March 15, 2021

Decided: April 23, 2021

Before MOTZ and WYNN, Circuit Judges, and SHEDD, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Spencer Utsey, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

<- . \

PER CURIAM:
Spencer Utsey seeks to appeal the district court’s order denying relief on his 28
U.S.C. § 2254 petition. The district court referred this case to a magistrate judge pursuant
to 28 U.S.C. § 636(b)(1)(B). The magistrate judge recommended that relief be denied and
advised Utsey that failure to file timely, specific objections to this recommendation could
waive appellate review of a district court order based upon the recommendation.
The timely filing of specific objections to a magistrate judge’s recommendation is
necessary to preserve appellate review of the substance of that recommendation when the
parties have been warned of the consequences of noncompliance. Martin v. Duffy, 858
F.3d 239, 245 (4th Cir. 2017); Wright v. Collins, 766 F.2d 841, 846-47 (4th Cir. 1985); see
also Thomas v. Am, 474 U.S. 140, 154-55 (1985). Although Utsey received proper notice
and filed timely objections to the magistrate judge’s recommendation, he has waived
review of the claims pursued on appeal because his objections did not address the same
claims. See Martin, 858 F.3d at 245 (holding that, “to preserve for appeal an issue in a
magistrate judge’s report, a party must object to the finding or recommendation on that
issue with sufficient specificity so as reasonably to alert the district court of the true ground
for the objection” (internal quotation marks omitted)).
Accordingly, we deny a certificate of appealability and dismiss the appeal. We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
DISMISSED
2

Si

20-7683

Spencer Utsey
#192660
KIRKLAND CORRECTIONAL INSTITUTION
4344 Broad River Road
Columbia, SC 29210-0000

FILED: May 3, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7683
(8:19-cv-03218-JMC)
SPENCER UTSEY, a/k/a Spencer Clay Utsey
Petitioner - Appellant
v.
WARDEN OF KIRKLAND CORRECTIONAL INSTITUTION
Respondent - Appellee
and
SOUTH CAROLINA DEPARTMENT OF CORRECTIONS
Respondent

TEMPORARY STAY OF MANDATE
Under Fed. R. App. P. 41(b), the filing of a timely petition for rehearing or
rehearing en banc stays the mandate until the court has ruled on the petition. In
accordance with Rule 41(b), the mandate is stayed pending further order of this court.
/s/Patricia S. Connor, Clerk

3r3

•
\
1

;

I
t

.v^v^'V'^si^.V..' > .
y;
'V.

U.S. District Court

•

District of South Carolina ’• **;*'-•&1'
x Notice of Electronic Filing
/'■-

.1

.

'*

■

,

v-;

w.-.
i

;.■ ’ v,,. ■

4 "

r

<*.-•

_jiv' •■/•

The following transaction was Sfe.re'dSn' 10/l^^®P‘-at^:?32:PM-El)f and’filed conTo/16/2019
Case Name: ■ Utsey v. Dicksoiv:; .•.*
^ Vc V , -,
Case Number:'5 :l?-cv3^S73*-^^JHA’'o.^?^V^^'')tv'*^\*V^^%:l'i;:'y;C^i^'^ ■' - .•:

«
/ ‘

►

■;\

\ ’>

6 .

. .•

, *»
o.

■i

'>

i\ >; *; •-•;•••''• . •*•>...

;*'<..>/ .•:. - - • •>

•* ^

.'A -v

•><

at
Docket Tekt: ORDER .directing Clerk n^t ^'authoji^y;'er^ice:ani ady^ing. plaintiff to notify. Clefk in' writing .
ofSny change of address^^l^ntiff ha^c^red^a:%]ft.Wth^D.S,^^*'tfe^ ^ount;o£^50'‘;-. ‘j- ■
Signed by Magistrate Judge JacqueJ^D^ul^n onlo/T^l'^gfe,)^! '*•
■ V *

A

■

t

■

.

...

*

?' "

v‘ ’ ■

,

..

K#\

'

*;•»

5:19-CV.-02B73-JMC;JD>;^ti^^^el^rdmblly^^^.V £ “
5:1 ^*Cy-02873-JM6.-,Jb^ijjtetrq^.^-*’'
r:-.
Spencer Utsey
t
192660- ? •
F2-B-139,

;

.,

^electronicall/rfiail^d'.fo:*.
*

y"

;."£i-. ^.:c/rs •

-■>

A •.*

v, • .

!

\
v
• {

\

•0

t

A-t-

i -

l

f

V .•

V

Kirkland CorrectipnakMtijjiJiiin, «J;■■■',.J&JL&'i,*
Columbia, SC-2921,q’a^Vt.^?-'--... VI

•* K':\

C<V

y

>

r,r ■

v :

t

\ •■s

The following ddcurnent^sjarc asspciated^with this transaction:^
Document descripti6n:Main Document •/ i; >■ *' • '
.-*
T V
- .
%
^v
* Original filename:n7a
*
i,-» A
X>
Electronic dopument'Stamp:.,.- . .. ,
• ",. {StAMP dcecfStampJD=l()9V>30295..[Pate4’6/l'6/2Ol^] KileNiimber^SltfSaO-.V
■ .. 0] [a398f430!:bc:8bb0da46e7lb3225j00827W63a654.15kfc05'6a.7e334265bdfe5b3a
.' ac40dblG?3d5al50b21aff‘6ftafde%,4425.9if988:d()c94;3al7018i$8cec7f]¥
'

•»

T ,

1

■

l

\

•. iv

'&■>

■■ *.

»-

•

.‘V

• .•

;" '"V*
.’ ..

t

*«•''.

,V; '* .•

'

-v

- .»

V'-‘Vp '*-v

• i

v

-\ ;

»

*

i*

4

»•.

-•V
1

1

*.

V

I

•i

t

1

2V

<i-

4

i

«

v/

I
(

*

.

!>

.*

5:19-cv-02873-JMC-JDA

Date Filed 10/16/19

Entry Number 8

Page lot 3

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Spencer Utsey
Plaintiff,
v.
Edgar W. Dickson
Defendant.

C/A No. 5:19-cv-02873-JMC-JDA

)
)
)
)
)
)
)
)
)
)

ORDER

This is a civil action filed by a state prisoner proceeding pro se. Therefore, in the
event that a limitations issue arises, Plaintiff shall have the benefit of the holding in Houston
v. Lack, 487 U.S. 266 (1988) (prisoner’s pleading was filed at the moment of delivery to
prison authorities for forwarding to District Court). Under Local Civil Rule 73.02(B)(2),
D.S.C., pretrial proceedings in this action have been referred to the assigned United States
Magistrate Judge.
PAYMENT OF THE FILING FEE:
By filing this case, Plaintiff has incurred a debt to the United States of America in the
amount of $350. See 28 U.S.C. § 1914. This debt is not dischargeable in the event
Plaintiff seeks relief under the bankruptcy provisions of the United States Code. See 11
U.S.C. § 523(a)(17). A prisoner is permitted to file a civil action without prepayment of fees
or security therefor under 28 U.S.C. § 1915. Plaintiff has submitted an Application to
Proceed Without Prepayment of Fees and Affidavit (Form AO 240) to this Court pursuant
to 28 U.S.C. § 1915(a)(1), which is construed as a motion for leave to proceed in forma .
pauperis. A review of the motion reveals that Plaintiff does not have the funds to prepay
the filing fee.
/
Plaintiffs motion [Doc. 2] for leave to proceed in forma pauperis is GRANTED. As
the Court has granted Plaintiff permission to proceed in forma pauperis, the agency having
custody of Plaintiff shall collect payments from Plaintiffs prisoner trust account in
accordance with 28 U.S.C. § 1915(b)(1) and (2), until the full $350 filing fee is paid.
TO PLAINTIFF:
Plaintiff must place the civil action number listed above (5:19-cv-0287J'-JMC-JDA)
on any document provided to the Court pursuant to this Order. Any future .filings in this
case must be sent to the address below: (300 East Washington Strefet, Room 239,
Greenville, South Carolina 29601). All documents requiring Plaintiffs signature shall be
signed with Plaintiffs full legal name written in Plaintiffs own handwriting. ;Pro se litigants
shall not use the “s/typed name" format used in the Electronic Case Filing:.System. In all
future filings with this Court, Plaintiff is directed to use letter-sized (814 inches by 11 inches)
[

i
't

i
i
. ■- f
■ -s

-J

/,

5:19-cv-02873-JMC-JDA

Date Filed 10/16/19

Entry Number 8

Page 2 of 3

paper only, to write or type text on one side of a sheet of paper only, and not to write or
type on both sides of any sheet of paper. Plaintiff is further instructed not to write to the
edge of the paper, but to maintain one inch margins on the top, bottom, and sides of each
paper submitted.
Plaintiff is a pro se litigant. Plaintiffs attention is directed to the following important
notice:
You are ordered to always keep the Clerk of Court advised in
writing (300 East Washington Street, Room 239,
Greenville, South Carolina 29601) if your address changes
for any reason, so as to assure that orders or other matters
that specify deadlines for you to meet will be received by you.
If as a result of your failure to comply with this Order, you fail
to meet a deadline set by this Court, your case may be
dismissed for violating this Order. Therefore, if you have a
change of address before this case is ended, you must comply
with this Order by immediately advising the Clerk of Court in
writing of such change ofaddress and providing the Court with
the docket number of all pending cases you have filed with this
Court. Your failure to do so will not be excused by the Court.
TO THE CLERK OF COURT:
This case is subject to summary dismissal based on an initial screening conducted
pursuant to 28 U.S.C. §1915 and/or 28 U.S.C. § 1915A. Therefore, the Clerk of Court shall
not issue the summons or forward this matter to the United States Marshal for service of
process at this time.

r

The Clerk of Court shall mail a copy of this Order to Plaintiff.

c

The Clerk of Court shall notenter any change ofaddress submitted by Plaintiff whichdirects that mail be sent to a person other than Plaintiff unless that person is an; attorney
admitted to practice before this Court who has entered a formal appearance. (
a

I

(

IT IS SO ORDERED.

%
k

r
t

s/Jacauelvn D. Austin
United States Magistrate Judge

}

\

}

October 16, 2019
Greenville, South Carolina

I

>

Plaintiffs‘attention is directed to the important WARNING on the following page.
\
i
L.

r

\
■

•*'

f

5:19-cv-02873-JMC-JDA

Date Filed 10/16/19

Entry Number 8

Page 3 of 3

IMPORTANT INFORMATION .... PLEASE READ CAREFULLY
WARNING TO PRO SE PARTY OR NONPARTY FILERS
ALL DOCUMENTS THAT YOU FILE WITH THE COURT WILL BE AVAILABLE TO
THE PUBLIC ON THE INTERNET THROUGH PACER (PUBLIC ACCESS TO COURT
ELECTRONIC RECORDS) AND THE COURT’S ELECTRONIC CASE FILING SYSTEM.
CERTAIN PERSONAL IDENTIFYING INFORMATION SHOULD NOT BE INCLUDED IN,
OR SHOULD BE REMOVED FROM, ALL DOCUMENTS BEFORE YOU SUBMIT THE
DOCUMENTS TO THE COURT FOR FILING.
*

'<5

Rule 5.2 of the Federal Rules of Civil Procedure provides for privacy protection of
electronic or paper filings made with the court. Rule 5.2 applies to ALL documents
submitted for filing, including pleadings, exhibits to pleadings, discovery responses, and
any other document submitted by any party or nonparty for filing. Unless otherwise ordered
by the court, a party or nonparty filer should not put certain types of an individual’s personal
identifying information in documents submitted for filing to any United States District Court.
If it is necessary to file a document that already contains personal identifying information,
the personal identifying information should be "blacked out’’ or redacted prior to submitting
the document to the Clerk of Court for filing. A person filing any document containing their
own personal identifying information waives the protection of Rule 5.2(a) by filing the
information without redaction and not under seal.

1.

Personal information protected bv Rule 5.2(a):
(a)

(b)
(c)
(d)

Social Security and Taxpayer identification numbers. If an individual’s
social security number or a taxpayer identification number must be included
in a document, the filer may include only the last four digits of that number
Names of Minor Children. If the involvement of a minor child must-be
mentioned, the filer may include only the initials of that child.
Dates of Birth. If an individual's date of birth must be inclikJed-'in a—
document, the filer may include only the year of birth.
f
Financial AccountNumbers. If financial account numbers are relevant, the
filer may include only the last four digits of these numbers.

l

2.

Protection of other sensitive personal information - such as driveKs license
numbers and alien registration numbers - may be sought under Rule 5.2fd) (filings
made under seal) and (e) (protective orders).

i’
■'-*■****

I

J

4

r

r

i

'V

K
<

7r\

f
V.

'"V!

J

^5:19-07-02873-^0

\

:

Date Filed 10/16/19

Entry Number 9

Page 1 of 11

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
ORANGEBURG DIVISION
Spencer Utsey.

) C/A No. 5:19-cv-02873-JMC-JDA
Plaintiff,

v.

)
)
)
)

) REPORT AND RECOMMENDATION*

Edgar W. Dickson,
Defendant.

)
)
)
)

. y--': ‘V .

Spencer Utsey, (“Plaintiff'), proceeding 'pro se and in forma pauperis, brought this
civil action pursuant to 42 U.S.C. § 1983. [Doc.1.] Plaintiff is

an inmate in the custody of

the South Carolina Department of Corrections (“SCDC") and is currently

incarcerated at the

Kirkland Correctional Institution. [/cf;-at2.] Pursuant to the provisions of 28 U.S.C. § 636(b)
and Local Civil Rule 73.02(B)(2)(d), D.S.C., the undersigned Magistrate Judge is authorized'
to review such complaints for relief and submit findings and recommendations to the District
Court. Having reviewed the Complaint in accordance with applicable law, the undersigned
finds that this action is subject to summary dismissal.

background
Plaintiff has filed a Complaint on the standard court form [Doc. 1] as well as an
attachment entitled “Cause of Action” in which he makes additional allegations [Doc. 1-1],
Plaintiff sues a single Defendant in this action, the Honorat^.Edgar W.

Dickson
(“Defendant” or “Judge Dickson"), a South Carolina Circuit Court Judge in Bamberg
County. [Doc. 1 at 2.] Plaintiff sues Defendant under § 1983

in light of “the constitutional
•

-

?•

right of freedom being deprived and judicial misconduct [and] fraud by [Defendant].” [Id.
at 4.]

Plaintiff alleges . that Defendant “presigned a conditional order of dismissal to
/
I

J<r

!
(

5:19-cv-02873-JMC

Date Filed 10/16/19

Entry Number 9

Page 2 of 11

[Plaintiffs] PCR” on December 29, 2017. [Id. at 5.] Plaintiff alleges that Defendant held
\

the Order in his office for about nine months before sending the Order to Plaintiff, [id.] For
his injuries, Plaintiff contends that was “injured inside [and] out, pain, suffering, and denial
of freedom” as a result of Defendant’s pre-signing the Conditional Order of Dismissal at
case number 2017-cp-05-00184. [Id. at 6.] For his relief, Plaintiff seeks $6 million in
damages because he is being detained illegally against his will: [Id.] Plaintiff makes similar
allegations in his attachment to the Complaint. [Doc. 1-1 at 1-4.] Specifically, Plaintjff
contends that Defendant committed an "act of perjury or concealment of a document
coupled with [an] intentional scheme to defraud the court [which] justifies the setting aside
of a judgment due to extrinsic fraud." [Id. at 4.] Plaintiff also includes a copy of the
Conditional Order of Dismissal [id. at 8-19], as well as a letter from the South Carolina
Office of Disciplinary Counsel in response to a complaint Plaintiff filed against Defendant
with that Office [id. at 20-21].
The Court takes judicial notice1 of Plaintiff’s state court records as well as other
cases he has filed in his Court, importantly, the undersigned notes that Plaintiff previously
filed a habeas action under 28 U.S.C. § 2254 in this Court at case number 8:13-cv-1433,
in which the Court granted summary judgment for the Respondent. See Utsey v. McCall,
No. 8:13-cv-1433, 2014 WL 4825625, at *3 (D.S.C. Sept. 24, 2014).

The Court

summarized Plaintiffs criminal action and related appeals.and collateral actions as follows:

See Philips v. Pitt Cty. Mem. Hosp., 572 F.3d 176, 180
Cir. 2009) (courts “may
properly take judicial notice of matters of public record”); Colonial Penn Ins. Co. v. Coil, 887
F.2d 1236, 1239 (4th Cir. 1989) (“We note that 'the most frequent use of judicial notice is
in noticing the content of court records.”’) (alteration omitted).
2

5:19-cv-02873-JMC

Date Filed 10/16/19

Entry Number 9

Page 3 of 11

Petitioner was found guilty after a June 15, 1999, jury trial on
a charge of armed robbery and was sentenced to 30 years in
prison. Petitioner filed a direct appeal on September 7, 2000.
The South Carolina Court of Appeals affirmed the conviction on
November 20, 2000. Petitioner filed a petition for a rehearing
on December 5,2000, which was denied on January 30,2001.
Petitioner filed a petition for writ of certiorari to the South
Carolina Supreme Court on April 2, 2001. The Supreme Court
denied the petition on June 21,2001, and issued the remittitur
the next day. Petitioner filed a pro se application for Post
Conviction Relief (“PCR") on April 9,2002. After an evidentiary
hearing on January 9, 2003, the PCR court filed an order of
dismissal on March 3, 2003. Petitioner did not appeal the
dismissal. Petitioner filed three, more PCR applications—on
April 18, 2008, December 6, 2011, and November 19,
2012—each of which was denied as being, untimely for having
been filed past the statute of limitations.2
Utsey, 2014 WL 4825625, at *1 (citations to the record omitted). Plaintiff filed a fifth PCR
action in the Bamberg County Court of Common Pleas on September 21, 2017, at case
number 2017-cp-05-00184, which remains pending at this time. See Utsey v. State of
South Carolina, No. 2017-cp-05-00184, available at https://pubIicindex.sccourts.org/
Bamberg/PublicIndex/PISearch.aspx (search by case number) (last visited Oct. 16,2019).
The present case arises from a PCR action filed by Plaintiff in the Orangeburg
County Court of Common Pleas on October 27, 2016, at case number 2016-cp-38-1382.
See Utsey v. State of South Carolina, No. 2016-cp~38-1382 (the “PCR Action"), available
at https://publicindex.sccourts.org/Orangeburg/Publiclndex/PISearch.aspx (search by case
number) (last visited Oct. 16, 2019). In that action, Judge Dickson issued a Conditional
Order of Dismissal that was dated December 29, 2017, and entered on the docket on

2Plaintiff s PCR actions are found at case numbers 2002-cp-05-000555,2008-cp-05-00073,
2011 -cp-05-00265, and 2012-cp-05-00210, in the Bamberg County Second Judicial Circuit
Public Index, available at https://publicindex.sccourts.org/Bamberg/Publiclndex/
PISearch.aspx (last visited Oct. 16, 2019).
3

1o

5:19-cv-02873-JMC

Date Filed 10/16/19

Entry Number 9 .. Page 4 of 11

January 8, 2018. [Doc. 1-1 at 19.] Judge Dickson concluded that the action was subject
to summary dismissal as it was. successive and time-barred. [Id: at 17-19.] Judge Dickson
■

notified Plaintiff that the action would, be dismissed in its entirety if Plaintiff did not show
cause why the Order should not become final within twenty days from the date of service
of the Order on Plaintiff. [Id. at 19.] Plaintiff filed a response to the Conditional Order of
,

Dismissal on September 18, 2018. See PCR Action, Response to the Conditional Order
of Dismissal, filed Sept. 18, 2018.
STANDARD OF REVIEW
Plaintiff filed this action pursuantto 28 U.S.C. § 1915, the in forma pauperis statute.
■'This.statute authorizes the District Court to.dismiss a case if it is satisfied that the action
i-

■ “fails to state a claim on which relief may be granted," is "frivolous or. malicious,” of “seeks
,

monetary 'relief against a defendant who is immune from such relief.”

28 U.S.C.

.§ 1915(e)(2)(B). Further, Plaintiff is a prisoner underthe definition in 28 U.S.C. § 1915A(c),
.- and “seeks redress from a governmental entity or officer or employee of a governmental
.entity.” 28 U.S.C. § T915A(a), Thus,, even if Plaintiff had prepaid the full filing fee, this
Court would be charged with screening Plaintiffs lawsuit to identify cognizable claims or
*
*
to dismiss the Complaint if (1) it were frivolous, malicious, or failed to state a claim upon
which relief may be granted, or (2)'if it sought monetary relief from a defendant who is
immune from such relief. 28 U.S.C. § 1915A.
i

Because Plaintiff is a pro se litigant, his pleadings are accorded liberal construction
and held to a less stringent standard than formal pleadings drafted by attorneys. See
Erickson v. Pardus, 551 U.S. 89, 94 (2007) {per curiam). However, even under this less
stringent standard, Plaintiffs Complaint is subject to summary dismissal. The mandated
4
X

r

r
5:19-cv-02873-JMC

Date Filed 10/16/19

Entry Number 9

Page'5 of 11

liberal construction afforded to pro se pleadings means that if the court can reasonably
read the pleadings to state a valid claim on which Plaintiff could prevail, it should do so, but
a district court may not rewrite a petition to include claims that were never presented
Barnett v. Hargett, 174 F.3d 1128, 1133 (10th Cir. 1999), or construct Plaintiffs legal
arguments for him, Small v. Endicott, 998 F.2d 411,417-18 (7th Cir. 1993), or “conjure up
questions never squarely presented’’ to the court, Beaudett v. City of Hampton, 775 F.2d
1274,1278 (4th Cir. 1985). The requirement of liberal construction does not mean that the
court can ignore a clear failure in the pleading to allege facts which set forth a claim
cognizable in a federal district court. See Weller v. Dep‘tofSoc. Servs., 901 F.2d 387, 391
(4th Cir. 1990).
DISCUSSION
Plaintiff filed this action pursuant to 42 U.S.C. § 1983, which ‘"is not itsejf a source
of substantive rights,’ but merely provides ‘a method for vindicating federal rights elsewhere
conferred.’” Albright v. Oliver, 510 U.S. 266, 271 (1994) (quoting Baker v. McCollan, 443
U.S. 137,144 n.3 (1979)). A civil action under § 1983 “creates a private right of action to
vindicate violations of 'rights, privileges, or immunities secured by the Constitution and
laws’ of the United States.” Rehberg v. Paulk, 566 U.S. 356, 361 (2012). To state a claim
under § 1983, a plaintiff must allege two essential elements: (1) that a right secured by the
Constitution or laws of the United States was violated, and (2) that the alleged violation was
committed by a person acting under the color of state law. West v. Atkins, 487 U.S. 42,48
(1988).
Although the Court must liberally construe the pro se Complaint.and Plaintiff is not
required to plead facts sufficientto prove his case as an evidentiary matter in his pleadings
5.

5:19-cv-02873-JMC

Date Filed 10/16/19

Entry Number 9

Page 6 of 11

■M

the Complaint “must contain sufficient factual matter, accepted as true, to 'state a claim to
relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S, 662,678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)); see also Francis v. Giacomelli, 588 F.3d
186, 193 (4th Cir. 2009) (explaining that a plaintiff may proceed into the litigation process
only when his complaint is justified by both law and fact); of. Skinner v. Switzer, 562 U.S.
521, 530 (2011) (holding that plaintiff need not pin his claim for relief to precise legal
theory). “A claim has 'facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct
alleged.”’ Owens v. Baltimore City State's Attorneys Office, 767 F.3d 379, 388 (4th Cir.
2014).
A complaint must contain “a short and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). As noted, although the court must
liberally construe the pro se complaint, a plaintiff must do more than make conclusory
statements to state a claim for relief. See Iqbal, 556 U.S. at 677; Twombly, 550 U.S. at
555.

Rather, the complaint must contain sufficient factual matter, accepted as true, to state

a claim that is plausible on its face, and the reviewing court need only accept as true the
complaint’s factual allegations, not its legal conclusions. Iqbal, 556 U.S. at 678-79 ; see
also Adams v. Rice, 40 F.3d 72, 74-75 (4th Cir. 1994) (explaining that, although the court
must liberally construe the pro se complaint, a plaintiff must do more than make mere
conclusory statements to state a claim); White v. White, 886 F.2d 721, 723-74 (4th
Cir. 1989) (dismissing complaint dismissed because it “failed to contain any factual
allegations tending to support his bare assertion”). While Plaintiff is not required to plead

6

\r

• i

5:19-cv-02873-JMC

m

Date Filed 10/16/19

Entry Number 9

Page 7 of 11

facts sufficient to prove his case as an evidentiary matter in the complaint, he must allege
facts that support a claim for relief. Bass v. DuPont, 324 F.3d 761, 765 (4th Cir, 2003).
Here, Plaintiffs Complaint is subject to summary dismissal because Defendant is
immune from suit and because Plaintiff has failed to state a claimfor relief. The Court will
address each issue below.
Defendant is entitled to dismissal
Plaintiff alleges that Defendant violated his rights when he entered a Conditional
Order of Dismissal in Plaintiffs PCR action. [Doc. 1 at 4-5.] Plaintiff also alleges that
Defendant improperly held the Order of Dismissal and committed fraud. [Id. at 4-5; Doc.
1-1 at 3.]
Defendant has absolute judicial immunity from this civil action and should be
dismissed from this case. It is well settled that judges have absolute immunity from a claim
for damages arising out of their judicial actions unless they acted have in the complete
absence of all jurisdiction. See Mireles i/. Waco, 502 U.S. 9, 11-12 (1991); Stump v.
Sparkman, 435 U.S. 349,351-64 (1978); see also Chu v. Griffith, 771 F.2d 79, 81 (4th Cir.
1985) (explaining that if a challenged judicial act was unauthorized by law, the judge still
has immunity from a suit seeking damages). Whether an act is judicial or non-judicial
relates to the nature of the act, such as whether it is a function normally performed by a
judge and whether the parties dealt with the judge in his judicial capacity. Mireles, 502 U.S.
at 12. Immunity applies even when the judge’s acts were in error, malicious, or in excess
of his authority. Id. at 12-13. Immunity presents a threshold question. See Harlow v.
Fitzgerald, 475 U.S. 800, 818 (1982). Absolute immunity is “an immunity from suit rather
than a mere defense to liability.” Mitchell v. Forsyth, 472 U.S. 511, 526 (1985).

7

5:19:cv-02873-JMC

Date Filed 10/16/3.9.

Entry Number 9

Page 8 of 11

Here, Plaintiff seems to allege that Defendant improperly entered an Order of
Dismissal and held that Order for a period of nine months. These allegations relate to a
judicial action. Thus, because the alleged misconduct of Defendant arose out of his judicial
actions, judicial immunity squarely applies and should bar this lawsuit against him.
Plaintiff’s claims are subject to dismissal
Further, the entire Complaint should be dismissed because it is frivolous and his
claim for relief is barred by the doctrine set forth in Heck v. Humphrey, 512 U.S. 477
(1994). Plaintiff seeks monetary damages because of Defendant’s allegedly unlawful
actions in entering the Conditional Order of Dismissal. [Doc. 1 at 6.] Plaintiff also contends
he is "being detained illegally, forcefully and against [his] will.” [Id.] To. the extent Plaintiff
■ may be seeking release from the custody of SCDC, release from prison is not available in
this civil rights action. See Heck, 512 U.S. at 481 (stating that “habeas corpus is the
\

■

\

exclusive remedy fora state prisoner who challenges the fact orduration of his confinement
and seeks immediate or speedier release, even though such a claim may come within the

\
\

./literal terms of § 1983”); Preiserv. Rodriguez, 411 U.S. 475, 487-88 (1973) (explaining a
challenge to the duration of confinement is within the-core of habeas corpus). In this
\ action- however, because Plaintiff is seeking money damages based on his allegedly
unlawful confinement in SCDC, his claim is premature because he is currently serving a
sentence for a conviction that has not yet been invalidated. In Heck, the Supreme Court
pronounced,
... in order to recover damages for allegedly unconstitutional
conviction or imprisonment, or for other harm caused by
actions whose unlawfulness would render- a conviction or
sentence invalid, ... a § 1983 plaintiff must prove that the
conviction or sentence has been reversed on direct appeal,

r, ■ ' - .fg§
•;
(v-

5:19-cv-02873-JMC

*»

Date Filed. iO/16/19

•s

1

umber 9

Page 10 of 11

V
*.:r«
•■v

*

§ 1915A (as soon as possible after docketing, district courts should review prisoner cases
to determine whether they are subject to summary dismissal).^-See Neitzke v. Williams
>

490 U.S. 319, 324-25 (1989); Haines v. Kerher, 404 U.S. 519 (1972).
IT IS SO RECOMMENDED.
!•

\

*

s/Jacauelvn D. Austin
United States Magistrate Judge

•r

(
* $

October 16, 2019
. Greenville, South Carolina

• .j.

Plaintiff’s attention is directed to the important notice on the next page.

©

V ■

1

;v

■

4The undersigned finds that Plaintiff cannot cure the defects in .his Complaint by mere
amendment and therefore recommends that the instant action be dismissed without
affording Plaintiff an opportunity to amend because amendment would be futile.^ See
Gooc/e v. Cent Va. Legal Aid Soc’y, Inc., 807 F.3d 619, 624 (4th Cir. 2015); Thomas v.
Driye Auto. Indus. of Am., Inc., No. 6:18-cv-169-AMG, 2018 WL 5258811, at *2 (D.S.C.
Jyl^25,2018) (declining to automatically give plaintiff leave to amend pursuant to Goode
because plaintiff could not cure the defects in his claims against defendant by mere
amendment), Report and Recommendation adopted by 2018 WL 5255183 (D.S.C. Oct. 22,
2018^or/cman v. Kernell, No. 6:18-cv-00355-RBH-KFM', 2018 WL4826535, at*2 (D.S.C.
Oct 2, 2018) (declining to give plaintiff leave to amend because it would be futile for plaintiff
to ameno^his complaint against the defendants being dismissed), aff’d, 766 F. App’x 1 (4th
\

•i

